NO. _________
IN THE SUPREME COURT OF THE UNITED STATES
MACI DENON DAVIS and
JOE L. FRANKLIN,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent
__________________________________________
PETITION FOR A WRIT OF CERTIORARI
APPENDIX
__________________________________________

INDEX TO APPENDIX

United States v. Davis, 834 F. App’x 296 (8th Cir. 2021) .......................................... 1a
District Court Memorandum Opinion and Order ...................................................... 3a
District Court Opinion and Order on Motion for Reconsideration ............................ 9a

United States v. Davis, 834 Fed.Appx. 296 (2021)

834 Fed.Appx. 296 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1,
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 8th Cir. Rule 32.1A.
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America Plaintiff - Appellee
v.
Maci Denon DAVIS Defendant - Appellant
United States of America Plaintiff - Appellee
v.
Joe L. Franklin Defendant - Appellant
No. 19-3050, No. 19-3082
|
Submitted: December 18, 2020
|
Filed: January 27, 2021
Appeals from United States District Court for the Western
District of Arkansas - Fayetteville
Attorneys and Law Firms
Amanda Meredith Donat, Lloyd Vance Stone, Assistant
United States Attorney, Candace L. Taylor, Assistant
U.S. Attorney, U.S. Attorney's Office, Western District of
Arkansas, Fort Smith, AR, for Plaintiff-Appellee
Maci Denon Davis, Pro Se
Bruce Eddy, Federal Public Defender, Anna Marie Williams,
Assistant Federal Public Defender, Federal Public Defender's
Office, Fayetteville, AR, for Defendant-Appellant
Before SMITH, Chief Judge, WOLLMAN and LOKEN,
Circuit Judges.

[Unpublished]
PER CURIAM.
Maci Davis and Joe Franklin appeal judgments from the
district court 1 reducing their sentences pursuant to Section
404 of the First Step Act of 2018. Pub. L. No. 115-391, §

404, 132 Stat. 5194, 5222 (2018). In light of our prior recent
decisions resolving First Step Act issues, we affirm.
In 2007 and 2008, respectively, Davis and Franklin pleaded
guilty to possession with the intent to distribute at least
50 grams of cocaine base (crack cocaine) in violation
of
21 U.S.C. § 841(a)(1),
(b)(1)(A)(iii). As career
offenders under the U.S. Sentencing Guidelines (U.S.S.G. or
Guidelines), both Davis and Franklin had advisory Guidelines
sentencing ranges of 262 to 327 months’ imprisonment and
were each sentenced to 262 months’ imprisonment. United
States v. Davis, 317 F. App'x 572 (8th Cir. 2009) (unpublished
per curiam) (affirming Davis's initial sentence); United States
v. Franklin, 362 F. App'x 571 (8th Cir. 2010) (unpublished per
curiam) (affirming Franklin's initial sentence).
After Davis and Franklin filed motions for relief under the
First Step Act, the district court reduced their respective
sentences to 188 months’ imprisonment, the bottom of their
recalculated sentencing ranges. Davis and Franklin moved
for reconsideration, seeking to supplement the record with
information about their postconviction conduct. The district
court denied the motions in September 2019 and *297 opted
instead to “tether itself to the recalculated guidelines not out
of a belief that the First Step Act requires such a practice, but
rather out of a belief that this is the most practicable way to
effectuate the policies undergirding the First Step Act in a fair
and consistent manner.” D. Ct. Order of Sept. 5, 2019 at 4.
Section 404 of the First Step Act provides that a district judge
“may ... impose a reduced sentence as if sections 2 and 3 of
the Fair Sentencing Act of 2010 ... were in effect at the time
the covered offense was committed.” 132 Stat. at 5222. If
the district court determines that a defendant is eligible for
relief when considering a motion for a reduced sentence under
Section 404, it must then decide whether to grant a reduction.
United States v. McDonald, 944 F.3d 769, 772 (8th Cir.
2019). The district court properly determined that Davis and
Franklin were eligible for sentence reductions under the First
Step Act. We review the district court's decision to grant or
deny an authorized sentence reduction under Section 404 for
abuse of discretion.

Id. at 771.

Davis and Franklin first argue that the district court
misunderstood its discretion under Section 404. Because
it believed that conducting the resentencing “proceedings
in a manner analogous to what would occur if the
United States Sentencing Commission, rather than Congress,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a 1

United States v. Davis, 834 Fed.Appx. 296 (2021)

had authorized the sort of retroactive sentencing relief
contemplated by Section 404” would help “avoid arbitrary
and unwarranted sentencing disparities, see

18 U.S.C.

§ 3553(a)(6),” the district court looked to
U.S.S.G. §
1B1.10(b) for guidance. D. Ct. Order of Aug. 15, 2019 at 11–
12 (citing
U.S.S.G. § 1B1.10(b)(1), which sets forth the
manner in which a sentence reduction is determined following
an amendment to the Guidelines and U.S.S.G. § 1B1.10(b)
(2)(A), which limits the district court's authority pursuant to
18 U.S.C. § 3583(c)(2) to reduce a sentence below the
bottom of the recalculated Guidelines range). The district
court, however, expressly recognized that, unlike sentence
reductions under
18 U.S.C. § 3582(c)(2), Section 404
did not require it to follow the Guidelines when imposing a
reduced sentence pursuant to the First Step Act. D. Ct. Order
of Aug. 15, 2019 at 13. Contra United States v. Johnson, 821 F.
App'x 670, 671–72 (8th Cir. 2020) (unpublished per curiam)
(remanding when the district court's opinion was unclear
whether the district court viewed a prior case as mandating
the result rather than as mere guidance in exercising its
discretion). It is not abuse of discretion for the district court
to consider one of the
§ 3553(a) sentencing factors when
deciding whether to reduce a sentence pursuant to Section
404.
United States v. Moore, 963 F.3d 725, 727 (8th Cir.
2020). Nor is it abuse of discretion for the district court to find
guidance in the Sentencing Commission's policy statements
when, as here, the court recognizes that Section 404 of the
First Step Act does not require it to do so.

Davis and Franklin next contend that the district court
failed to conduct a complete review of the motions on the
merits as contemplated by Section 404(c) of the First Step
Act. To conduct a “complete review” under Section 404, a
district court must consider the arguments presented in the
defendant's motion and have a reasoned basis for its decision.
Id. at 728. Our review consists of determining whether
the record shows that the district court “has considered the
parties’ arguments and has a reasoned basis for exercising
his own legal decisionmaking authority.” United States v.
Booker, 974 F.3d 869, 871 (8th Cir. 2020) (quoting Rita v.
United States, 551 U.S. 338, 356, 127 S.Ct. 2456, 168 L.Ed.2d
203 (2007)). The record clearly establishes that the district
court did so here. See *298 United States v. Williams, 943
F.3d 841, 844 (8th Cir. 2019) (“The district court need not
respond to every argument made by defendant.” (internal
citation and quotation marks omitted)); United States v.
Hoskins, 973 F.3d 918, 921 (8th Cir. 2020) (record showed
a complete review even though the district court did not
give rehabilitation and good disciplinary record as much
consideration as defendant would prefer).
The judgments of the district court are affirmed.
All Citations
834 Fed.Appx. 296 (Mem)

Footnotes
1

The Honorable Timothy L. Brooks, United States District Judge for the Western District of Arkansas.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2a 2

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

2019 WL 3848946
Only the Westlaw citation is currently available.
United States District Court, W.D.
Arkansas, Fayetteville Division.
UNITED STATES of America, Plaintiff
v.
Joe L. FRANKLIN, Defendant
and
United States of America, Plaintiff
v.
Maci Denon Davis and Ronald
Antonio Moorehead, Defendants
CASE NO. 5:08-CR-50060, CASE NO. 5:07CR-50037-001, CASE NO. 5:07-CR-50037-002
|
Signed 08/15/2019
Attorneys and Law Firms
Brandon T. Carter, United States Attorneys Office, Fort
Smith, AR, M.C. Quinn, U.S. Attorney's Office, Texarkana,
AR, for Plaintiff.

MEMORANDUM OPINION AND ORDER
TIMOTHY L. BROOKS, UNITED STATES DISTRICT
JUDGE
*1 Currently before the Court in the case of United States v.
Franklin, 5:08-cr-50060, are:

• Defendant Joe L. Franklin's Motion
to Reduce Sentence (Doc. 85) and
the Government's Response (Doc.
90).

Also before the Court in the case of United States v. Davis &
Moorehead, Case No. 5:07-cr-50037, are:
• Defendant Maci Denon Davis's Motion to Reduce
Sentence (Doc. 123) and the Government's Response
(Doc. 126); and

• Defendant Ronald Antonio Moorehead's Motion to
Reduce Sentence (Doc. 114) and the Government's
Response (Doc. 119).
This Memorandum Opinion and Order addresses and rules
upon issues that are common to all three of these Motions.
Other matters that are unique to each Motion will be ruled
upon in separate Orders—each of which will be filed on
the docket for the case in which its movant is a party—in
accordance with this Memorandum Opinion and Order.

I. BACKGROUND
In 2010, the Fair Sentencing Act was passed by Congress
and signed by the President. Sections 2 and 3 of the
Fair Sentencing Act effectively reduced certain statutory
penalties for crack-cocaine offenses, thus lowering the
federal sentencing disparity between crack-and powdercocaine crimes. See Fair Sentencing Act of 2010, Pub. L.
No. 111-220, §§ 2-3, 124 Stat. 2372, 2372 (2010). Eight
years later, the First Step Act of 2018 was passed and signed,
enacting a wide range of various criminal-justice reforms.
Among those many reforms was a provision designed to make
Sections 2 and 3 of the Fair Sentencing Act retroactively
applicable to defendants who had been sentenced before the
Fair Sentencing Act became law. That provision is located in
Section 404 of the First Step Act, which reads as follows:
(a) DEFINITION OF COVERED OFFENSE.—In this
section, the term “covered offense” means a violation
of a Federal criminal statute, the statutory penalties for
which were modified by section 2 or 3 of the Fair
Sentencing Act of 2010 (Public Law 111-220; 124 Stat.
2372), that was committed before August 3, 2010.
(b) DEFENDANTS PREVIOUSLY SENTENCED.—A
court that imposed a sentence for a covered offense may,
on motion of the defendant, the Director of the Bureau
of Prison, the attorney for the Government, or the court,
impose a reduced sentence as if sections 2 and 3 of the
Fair Sentencing Act of 2010 (Public Law 111-220; 124
Stat. 2372) were in effect at the time the covered offense
was committed.
(c) LIMITATIONS.—No court shall entertain a motion
made under this section to reduce a sentence if the
sentence was previously imposed or previously reduced
in accordance with the amendments made by sections 2

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3a 1

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

and 3 of the Fair Sentencing Act of 2010 (Public Law
111-220; 124 Stat. 2372) or if a previous motion made
under this section to reduce the sentence was, after the
date of enactment of this Act, denied after a complete
review of the motion on the merits. Nothing in this
section shall be construed to require a court to reduce
any sentence pursuant to this section.
First Step Act of 2018, Pub. L. No. 115-391, § 404, 132 Stat.
5194, 5222 (2018).
*2 Defendants Franklin, Davis, and Moorehead were all
sentenced in this Court for crack offenses before the Fair
Sentencing Act was enacted. Now they are asking this Court
to reduce their sentences under Section 404 of the First Step
Act. The Government does not deny that these Defendants are
eligible for sentencing relief, and it does not oppose an award
of some of the relief they are requesting. But it disagrees with
these Defendants on the amounts by which their sentences
should be reduced, and on what type of proceedings this Court
should follow when awarding them relief.
All three of these Defendants, when originally sentenced,
were found by this Court to have criminal histories that
made them “career offenders” as the United States Sentencing
Guidelines then defined that term; accordingly they all
U.S.S.G. § 4B1.1(b) which
received enhancements under
yielded more severe advisory sentencing ranges than would
have applied absent their career-offender designations. This
is significant because all three Defendants contend that
subsequent developments in Supreme Court and Eighth
Circuit caselaw imply that they would not qualify as career
offenders if that analysis were performed anew today. Thus,
all three Defendants want the opportunity to challenge
their career-offender designations. Specifically, each of these
Defendants is seeking a complete resentencing, at a hearing
where the Defendant would be physically present. At those
resentencing hearings, each Defendant wants this Court to
perform a complete recalculation of his advisory sentencing
range under the most recent version of the Sentencing
Guidelines, in accordance with the current state of caselaw,
and to consider anew all of the relevant sentencing factors
under

18 U.S.C. § 3553(a).

The Government, on the other hand, does not believe that
the relevant statutes authorize a complete resentencing or the
opportunity for these Defendants to challenge their careeroffender designations. The Government agrees that this Court
should recalculate each Defendant's advisory sentencing

range under the United States Sentencing Guidelines, but
contends that when doing so this Court should alter only those
variables which depend on the statutory penalties that were
amended by the Fair Sentencing Act and made retroactive by
the First Step Act. This approach would be a straightforward
and mechanical process, because the only such variable in
these cases is the size of the career-offender enhancement
—not whether the career-offender enhancement applies in
the first place. Essentially, when a defendant is designated a
career offender under the Sentencing Guidelines, the severity
of his career-offender enhancement depends on the severity of
the maximum statutory penalty authorized for his offense of
conviction: the higher the statutory maximum, the larger the
career-offender enhancement. See
U.S.S.G. § 4B1.1(b).
There is no dispute between the Government and any of these
Defendants as to what the new advisory sentencing ranges
would be under this limited process; and if this limited process
were employed, then the Government would not oppose each
Defendant's sentence being reduced to the bottom of his
newly-calculated advisory sentencing range.
In other words, in each of these cases the only dispute between
the Defendant and the Government is whether applicable law
authorizes a complete in-person resentencing that includes an
opportunity for the Defendant to challenge his career-offender
status, or whether the Defendant may only receive a purely
mechanical reduction in his sentence which leaves his careeroffender status in place but which reduces the impact that his
career-offender status has on his advisory Guidelines range.
This Court believes the latter position is the better reading
of the relevant rules and statutes, in light of their underlying
policies and purposes. The following Section explains why.

II. DISCUSSION
*3 Whether a defendant's presence is required at a
sentencing proceeding depends upon the scope of the
proceeding in question. Ordinarily, the Federal Rules of
Criminal Procedure require that “the defendant must be
present at ... sentencing.” Fed. R. Crim. P. 43(a)(3). However,
“[a] defendant need not be present” when “[t]he proceeding
involves the correction or reduction of sentence under Rule
35 or
18 U.S.C. § 3582(c).” See Fed. R. Crim. P. 43(b)
(4). Rule 35 does not apply here, as it is concerned only
with correcting sentences “that resulted from arithmetical,
technical, or other clear error,” see
Fed. R. Crim. P. 35(a),
or with reducing sentences for defendants who “provided

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4a 2

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

substantial assistance in investigating or prosecuting another
person,” see

Fed. R. Crim. P. 35(b)(1).

18 U.S.C. § 3582(c) states:
The court may not modify a term of imprisonment once it
has been imposed except that—
(1) in any case—
(A) the court ... may reduce the term of imprisonment
(and may impose a term of probation or supervised
release with or without conditions that does not
exceed the unserved portion of the original term
of imprisonment), after considering the factors set
section 3553(a) to the extent that they are
forth in
applicable, if it finds that—
(i) extraordinary and compelling reasons warrant such
a reduction; or
(ii) the defendant is at least 70 years of age, has served
at least 30 years in prison, ... and a determination has
been made by the Director of the Bureau of Prisons
that the defendant is not a danger to the safety of
any other person or the community, as provided under
section 3142(g);
and that such a reduction is consistent with
applicable policy statements issued by the Sentencing
Commission; and
(B)the court may modify an imposed term of
imprisonment to the extent otherwise expressly
permitted by statute or by
Rule 35 of the Federal
Rules of Criminal Procedure; and
(2) in the case of a defendant who has been sentenced to
a term of imprisonment based on a sentencing range
that has subsequently been lowered by the Sentencing

modify a term of imprisonment after it has been imposed: (1)
if warranted by extraordinary and compelling reasons, see id.
at § 3582(c)(1)(A)(i); (2) if a defendant is not dangerous, is at
least 70 years old, and has served at least 30 years in prison,
see id. at § 3582(c)(1)(A)(ii); (3) if the Guidelines range on
which a defendant's sentence was based has subsequently
been lowered by the Sentencing Commission, see id. at §
3582(c)(2); or (4) “to the extent otherwise expressly permitted
by statute or by

Rule 35,” see id. at § 3582(c)(1)(B).

None of these Defendants is contending that there are
“extraordinary and compelling reasons” present here that
would warrant a reduction in his sentence. None of
these Defendants is at least 70 years old. None of these
Defendants was sentenced based on a sentencing range
that has subsequently been lowered by the Sentencing
Commission pursuant to
previously mentioned,

28 U.S.C. § 994(o). 1 And as
Rule 35 does not apply here. So

in the instant matter the only applicable exception to
18
U.S.C. § 3582(c)'s general rule against modifying terms of
imprisonment is that found in § 3582(c)(1)(B), authorizing
such modifications “to the extent otherwise expressly
permitted by statute.” And indeed, these Defendants are
moving under an expressly permitted statutory basis: Section
404 of the First Step Act.
*4 One might hastily assume, then, that under Rule 43 a
defendant's presence is not required for modification of his
sentence under the First Step Act. After all, as previously
noted, “[a] defendant need not be present” when “[t]he
proceeding involves the correction or reduction of sentence
under ...

18 U.S.C. § 3582(c).” See Fed. R. Crim. P.

18 U.S.C. § 3582(c)(1)(B) permits subsequent
43(b)(4).
modification of a prison term when “expressly permitted by
statute.” And Section 404 of the First Step Act is a statute that
expressly permits subsequent modification of a prison term.

Commission pursuant to
28 U.S.C. 994(o), ... the
court may reduce the term of imprisonment, after

However, this Court believes the situation actually is not quite
so simple. To see why, it is helpful to look at how Rule

considering the factors set forth in
section 3553(a) to
the extent that they are applicable, if such a reduction
is consistent with applicable policy statements issued by
the Sentencing Commission.

43 and
18 U.S.C. § 3582(c) work in the context of two
other situations where sentence modifications are “otherwise
expressly permitted by statute”: following successful direct

(emphasis added). In other words, this statute provides that
there are only four circumstances under which a court may

appeals from a sentence under 18 U.S.C. § 3742(f), (g),
or following successful collateral attacks on a sentence under
28 U.S.C. § 2255. 2 The former statute provides that if,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5a 3

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

on appeal from a criminal sentence, “the court of appeals
determines that ... the sentence was imposed in violation of
law or imposed as a result of an incorrect application of the
sentencing guidelines, the court shall remand the case for
further sentencing proceedings with such instructions as the
18 U.S.C. § 3742(f). As for
court considers appropriate.”
the latter statute, it provides that if, on motion by a federal
prisoner who is challenging the legality of his sentence,

the court finds that the judgment
was rendered without jurisdiction,
or that the sentence imposed was
not authorized by law or open to
collateral attack, or that there has been
such a denial or infringement of the
constitutional rights of the prisoner as
to render the judgment vulnerable to
collateral attack, the court shall vacate
and set the judgment aside and shall
discharge the prisoner or resentence
him or grant a new trial or correct the
sentence as may appear appropriate.

28 U.S.C. § 2255.
Both of these statutes apparently contemplate a wide variety
of potential remedies—including the possibility of a complete
resentencing, but also including a variety of other lesser
potential remedies, as deemed appropriate by the relevant
court. When courts are asked to determine whether a
defendant or prisoner must be present for a sentence
modification under either of these statutes, the answer—or at
least the outcome—seems to be driven by two considerations.
One is whether the modification of the sentence might result
in a more onerous sentence than was originally imposed. The
other is whether the resentencing court will be required to
exercise a significant amount of discretion while considering
some matter that was not considered at the original sentencing
proceeding. If either of these circumstances exists, then the
defendant's presence is required at his resentencing; but if
neither of these circumstances exists, then modification of
the defendant's sentence may be done in his absence. See,
e.g., United States v. Brown, 879 F.3d 1231, 1239–40 (11th
Cir. 2018); cf. United States v. Arrous, 220 F.3d 355, 361–
62 (2d. Cir. 2003) (holding that the defendant should have
been present for his resentencing following remand from a

successful appeal, but that his exclusion from the proceeding
was harmless error because his new sentence was less onerous
than his previous one, and his presence would not have
affected the outcome of his resentencing).
*5 The first consideration—whether the modified sentence
might be more onerous than the original—fits well with Rule
43's language that “[a] defendant need not be present” for
“reduction of sentence under ... 18 U.S.C. § 3582(c).” Fed.
R. Crim. P. 43(b)(4) (emphasis added). And it is a very simple
matter to observe that in the instant cases, these Defendants
cannot receive more onerous sentences than their original
ones. Section 404(b) of the First Step Act, by its own terms,
only authorizes courts to “impose a reduced sentence.”
However, the second consideration—whether the
resentencing court will be required to exercise a significant
amount of discretion while considering some matter that
was not considered at the original sentencing proceeding
—is not so straightforward here. It seems less grounded
in the language of Rule 43 than in the constitutional right
that this Rule seeks to protect: the guarantee, in the Fifth
Amendment's Due Process Clause, of a defendant's “right
to be present at any stage of the criminal proceeding that is
critical to its outcome if his presence would contribute to the
fairness of the procedure.” See

Kentucky v. Stincer, 482

U.S. 730, 745 (1987); 3 see also
United States v. Jackson,
923 F.2d 1494, 1496 (11th Cir. 1991) (describing Rule 43(a)
as “constitutionally based”).
For guidance in how this second consideration applies to
the First Step Act, it is useful to look at the United States
Supreme Court's decision in
Dillon v. United States, 560
U.S. 817 (2010). Of course that case was not concerned with
the First Step Act, which did not yet exist. But the majority
opinion in Dillon did make some very salient observations
about
18 U.S.C. § 3582(c)(2)—the previously-mentioned
statute authorizing reduction of an imprisonment term if
the Guidelines range on which a defendant's sentence was
based has subsequently been lowered by the Sentencing
Commission. With respect to that statute, the Supreme Court
reasoned:
By its terms,
§ 3582(c)(2) does not authorize a
sentencing or resentencing proceeding. Instead, it provides
for the “modif[ication of] a term of imprisonment” by
giving courts the power to “reduce” an otherwise final

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6a 4

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

sentence in circumstances specified by the Commission.

avoid arbitrary and unwarranted sentencing disparities, see

28 U.S.C. § 994(a)(2)(C) (referring to
§
Compare
3582(c)(2) as a “sentence modification provisio[n]”) with

18 U.S.C. § 3553(a)(6), counsels in favor of conducting
these proceedings in a manner analogous to what would
occur if the United States Sentencing Commission, rather than
Congress, had authorized the sort of retroactive sentencing
relief contemplated by Section 404 of the First Step Act. That
is to say, first this Court will recalculate each Defendant's
advisory sentencing range under the United States Sentencing
Guidelines, but only altering those variables which depend
on the statutory penalties that were amended by the Fair
Sentencing Act and made retroactive by the First Step Act.

18 U.S.C. § 3742(f) (authorizing courts of appeals
to remand “for further sentencing” upon a finding
§ 3742(g) (establishing the terms of
of error) and
“sentencing upon remand” and describing the proceeding
as a “resentenc[ing]” (capitalization omitted)). It is also
notable that the provision applies only to a limited
class of prisoners—namely, those whose sentence was
based on a sentencing range subsequently lowered by the
Commission. Section 3582(c)(2)'s text, together with its
narrow scope, shows that Congress intended to authorize
only a limited adjustment to an otherwise final sentence and
not a plenary resentencing proceeding.

See

560 U.S. at 825-26 (alterations in original).
This passage from Dillon is instructive because there are
strong textual and functional similarities between
18
U.S.C. § 3582(c)(2) and Section 404 of the First Step
Act. As already noted, like
§ 3582(c)(2), Section 404
only authorizes reduction of an otherwise final sentence.
§ 3582(c)(2), Section 404 applies only
And similarly to
to a limited class of prisoners—namely, those who were
sentenced for federal crimes with statutory penalties that were
subsequently modified by section 2 or 3 of the Fair Sentencing
Act. This policy decision of Congress to provide an avenue for
retroactive sentencing relief to a particular class of prisoners is
quite different from the purpose embodied by

See
U.S.S.G. § 1B1.10(b)(1). Then, the Court will decide
whether to award each Defendant a reduction from his
previously-imposed term of imprisonment, but in no event
will the Court reduce a Defendant's term to an amount that is
less than the minimum of the recalculated sentencing range.

18 U.S.C. §

3742(f),
(g), and
28 U.S.C. § 2255, which is to remedy
situations where an individual defendant's sentence may have
been based upon, or the result of, some legal, jurisdictional,
or constitutional error or defect. For these reasons, then, this
Court concludes that Section 404 of the First Step Act does
not contemplate a plenary resentencing at which a defendant's
presence is required.
*6 Nonetheless, it is clear that Section 404 vests quite
a bit of discretion in the judge, including with respect to
whether even to award any relief at all. As subsection (c)
states: “Nothing in this section shall be construed to require
a court to reduce any sentence pursuant to this section.”
Given this broad grant of discretion, the question arises how
it should be exercised. This Court believes that the need to

id. at § 1B1.10(b)(2)(A).

The Court is adopting this process in order to avoid at
least two potential arbitrary sentencing disparities. One such
disparity would be between career offenders who were
sentenced for crack offenses, and all other career offenders.
Under the Sentencing Guidelines, it makes no difference to
one's career-offender status whether his instant offense of
conviction is related to crack cocaine as opposed to any other
drug. It strikes this Court as unlikely that Congress intended
for Section 404 of the First Step Act to provide certain career
offenders with underlying crack-cocaine convictions a unique
opportunity for collaterally attacking their career-offender
designations while leaving career offenders with underlying
convictions for other drugs out in the cold.
Another such disparity would be within the set of career
offenders who were sentenced for crack offenses—between
those who were sentenced for offenses committed before
August 3, 2010, and those who were sentenced for offenses
committed after that date. Doubtless there are individuals
in the latter group who would like the opportunity to
challenge their career-offender designations with the benefit
of subsequent developments in caselaw. However, Section
404(c) instructs that “[n]o court shall entertain a motion made
under this section to reduce a sentence if the sentence was
previously imposed ... in accordance with the amendments
made by sections 2 and 3 of the Fair Sentencing Act of
2010....” It is difficult to see why Congress would have
imposed this limitation if it had intended for Section 404 of
the First Step Act to be a mechanism by which crack-cocaine

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7a 5

United States v. Franklin, Slip Copy (2019)
2019 WL 3848946

offenders could retroactively challenge their career-offender
status.

id. at § 404(c) (“Nothing in this section shall be construed
to require a court to reduce any sentence pursuant to this
section.” (emphasis added)).

This Court is not going so far as to say it believes Section
404 requires it to conform these proceedings to the process
described in
U.S.S.G. § 1B1.10(b). After all, Section
404 of the First Step Act says nothing about the United
States Sentencing Guidelines. And 18 U.S.C. § 3582(c)(1)
(B)—which authorizes modification of previously-imposed
terms of imprisonment “to the extent otherwise expressly
permitted by statute”—is the only subsection of
§ 3582(c)
that does not contain any requirement that the modification
be “consistent with applicable policy statements issued by
the Sentencing Commission.” Perhaps there are other ways
of conducting these proceedings that might also effectively
avoid the types of sentencing disparities that this Court
is seeking to avoid. But the procedure that the Court has
outlined here is reasonably calculated to accomplish these
ends, and is one that this Court believes it has the discretion to
implement. See First Step Act of 2018, § 404(b) (“A court ...
may ... impose a reduced sentence....” (emphasis added));

III. CONCLUSION
IT IS THEREFORE ORDERED that each Defendant's
Motion to Reduce Sentence is DENIED to the extent that it
is requesting a plenary resentencing at which the Defendant
would be present. But the Court will DEFER RULING on
these Motions to the extent that they are merely requesting
sentence reductions, until such time as the Court has
independently recalculated the advisory sentencing ranges
for these Defendants under the United States Sentencing
Guidelines.
*7 IT IS SO ORDERED on this 15 th day of August, 2019.
All Citations
Slip Copy, 2019 WL 3848946

Footnotes
1

2

The Sentencing Commission has promulgated some amendments to the Guidelines that retroactively
reduced base offense levels for drug-trafficking offenses. See Amendments 782, 788. However, these
Defendants' career-offender statuses prevented those retroactive amendments from having any effect on
their ultimate Guidelines sentencing ranges. See, e.g., United States v. Franklin, Case No. 5:08-cr-50060,
Doc. 69 (denying Mr. Franklin's motion for reduction of sentence because he “is a career offender,” making
the issue “moot” because “[a]fter application of the reduction, the offense level is the same as the range the
defendant was previously subject to”).
Prior to enactment of the First Step Act, a variety of Circuits held, or at least implied, that these two instances—
appellate remand or collateral attack—were the only instances where subsequent modification of a sentence
was “otherwise expressly permitted by statute” within the meaning of
e.g.,

United States v. Triestman, 178 F.3d 624, 629 (2d. Cir. 1999);

469, 476 (4th Cir. 2004);

United States v. Goines, 357 F.3d

United States v. Garcia-Quintanilla, 574 F.3d 295, 303 (5th Cir. 2009);

States v. Ross, 245 F.3d 577, 586 (6th Cir. 2001);
3

18 U.S.C. § 3582(c)(1)(B). See,

United

United States v. Penson, 526 F.3d 331, 335 (6th Cir.

2008);
United States v. Bailey, 777 F.3d 904, 906-07 (7th Cir. 2015).
Technically, Kentucky v. Stincer is concerned with the Due Process Clause of the Fourteenth Amendment.
See
482 U.S. at 745. But that clause simply extends the same guarantee with respect to states as the
Fifth Amendment's Due Process Clause already provides against the federal government. Compare id. with,
e.g.,

United States v. Gagnon, 470 U.S. 522, 526–27 (1985).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8a 6

Case 5:08-cr-50060-TLB Document 95

Filed 09/05/19 Page 1 of 5 PageID #: 540

9a

Case 5:08-cr-50060-TLB Document 95

Filed 09/05/19 Page 2 of 5 PageID #: 541

10a

Case 5:08-cr-50060-TLB Document 95

Filed 09/05/19 Page 3 of 5 PageID #: 542

11a

Case 5:08-cr-50060-TLB Document 95

Filed 09/05/19 Page 4 of 5 PageID #: 543

12a

Case 5:08-cr-50060-TLB Document 95

Filed 09/05/19 Page 5 of 5 PageID #: 544

13a

